App. 1

Appendix A.
Denial to Recall the Mandate
Case: 18-1687 Document: 67 Filed: 11/06/2019
UNITED STATES COURT OF APPEALS FOR THE
SEVENTH CIRCUIT
ORDER
November 6, 2019
Before
MICHAEL B. BRENNAN, Circuit Judge
Upon consideration of the MOTION TO RECALL
THE MANDATE, filed on November 5, 2019, by the
pro se appellant, IT IS ORDERED that the motion
to recall the mandate is DENIED.

Appendix B.
Denial of Rehearing
Case: 18-1687 Document: 64 Filed: 09/26/2019
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
September 26, 2019
Before
MICHAEL S. KANNE, Circuit Judge
AMY C. BARRETT, Circuit Judge

App. 2
MICHAEL B. BRENNAN, Circuit Judge
Nos. 18-1687 & 18-1950
Appeal from the United States District
Court for the Northern District of Illinois
Eastern Division.
No. 12-cr-109
Sharon Johnson Coleman,
Judge.
ORDER
On consideration of the petition for rehearing en banc
and petition for panel rehearing filed by DefendantAppellant, the petition for panel rehearing was
previously voted on by the panel and denied. The
court has considered the petition for en banc review
and no judge in active service has requested a vote on
the petition for rehearing en banc. Accordingly, the
petition for rehearing en banc is DENIED.

Appendix C.
Opinion of Seventh Circuit
In the United States Court of Appeals For the
Seventh Circuit
Nos. 18-1687 & 18-1950
UNITED STATES OF AMERICA,
Plaintiff-Appellee / Cross-Appellant,
v.

App. 3
HEON SEOK LEE,
Defendant
Appellant/ Cross-Appellee.

Appeals from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. l:12-cr-00109-l - Sharon Johnson Coleman,
Judge.

ARGUED APRIL 9, 2019 — DECIDED AUGUST 21,
2019

Before KANNE, BARRETT, and BRENNAN, Circuit
Judges.
BRENNAN, Circuit Judge. Crowbar in hand, U.S.
Customs Officer Jorge Parra spent December 8, 2010
“cracking open containers” at a warehouse near the
Los Angeles seaport. Parra pried open one from South
Korea to inspect its freight. Inside he found a fully
assembled, five-foot tall industrial fan called a turbo
blower. A placard riveted to the side read, “Assembled
in USA.”
Presented with a fully assembled machine fresh off
the boat from South Korea, which brazenly advertised
its assembly in the United States, little sleuthing was
required to determine something was amiss. Parra’s
discovery kicked off a federal investigation that traced
back to the defendant in this case, Heon Seok Lee.

App. 4
Prosecutors eventually charged Lee with executing a
scheme to defraud local governments by falsely
representing that his company manufactured its turbo
blowers in the United States.
A grand jury indicted Lee on five counts of wire
fraud and three counts of smuggling. After a trial, the
jury found Lee guilty on all counts. Lee now appeals
his convictions and the restitution ordered, and the
government cross-appeals Lee’s prison sentence. We
find no fault in the trial or the sentence.
I. Background
A. The Recovery Act
This criminal case has an atypical origin: an
economic stimulus package. Congress passed the
American Recovery and Reinvestment Act, Pub. L. No.
111-5, 123 Stat. 115 (2009)—which we will simply call
the “Recovery Act”—to jumpstart the flagging
domestic economy during the Great Recession. See
Kameron Hillstrom, The American Recovery and
Reinvestment Act: A Fitting Future for Recovery
Legislation, 44 PUB. CONTRACT L. J. 285, 288 (2015).
The Recovery Act earmarked billions to fund public
infrastructure projects. Id. at 289 (noting the Recovery
Act made $261.2 billion available for such projects).
Relevant to this case, Congress allocated $6.4
billion to the EPA for water-infrastructure
improvements. The EPA did not spend the money
directly; instead it awarded grants to “revolving funds”
administered by the States. After receiving EPA
grants, the revolving funds then issued low-interest
loans to local municipalities or agencies sponsoring

App. 5
specific projects. Those local governments were then
responsible for hiring contractors to perform the work.
To achieve Congress’s objective of bolstering the
American economy, the Recovery Act included the
following domestic purchasing requirement, commonly
known as the “Buy American” provision:
None of the funds appropriated or
otherwise made available by this Act may
be used for a project for the construction,
alteration, maintenance, or repair of a
public building or public work unless all
of the iron, steel, and manufactured
goods used in the project are produced in
the United States.
Recovery Act § 1605(a), 123 Stat. 303.1
At first glance, this requirement seems
straightforward. But federal agencies struggled to pin
down what it means for a product to have been
“produced in the United States.” Different agencies
used different tests. See Thomas D. Blanford,
Navigating the Recovery Act’s Buy American Rule in
State and Local Government Construction, 46
PROCUREMENT LAWYER 3, 4 (Fall 2010) (listing
five tests used by different agencies). The EPA adopted
the “substantial transformation” standard to
administer the Recovery Act, and it developed a threepart test to assess whether a manufacturer
substantially transformed a product within the United
States.
1 The Recovery Act’s Buy American provision should not be
confused with the separate, much older, Buy American Act of
1933, 41 U.S.C. §§ 8301-8305.

App. 6
As a condition to receiving Recovery Act funding,
local governments and their contractors were required
to abide by the Buy American provision. Federal
agencies like the EPA audited projects to ensure
compliance. Local governments required their
suppliers to complete “Buy American certifications”
representing that their products complied with the
statute.
B. KTurbo’s Initial Plan
Heon Seok Lee founded KTurbo Inc. in his
homeland of South Korea. KTurbo manufactures
centrifugal turbo blowers—large industrial fans used
to provide oxygen for biological water treatments in
wastewater facilities. Turbo blowers are sophisticated
and expensive pieces of equipment, requiring on-site
programming, testing, and calibration.
Lee saw the Recovery Act as a growth opportunity
for KTurbo, whose penetration into the United States
market was limited at the time. The Recovery Act
earmarked billions for products like KTurbo’s turbo
blowers. But KTurbo would be unable to tap into those
funds unless it demonstrated compliance with the Buy
American provision. So, Lee and his sister, Trinity
Lee,2 developed a Recovery Act plan. They researched
regulatory guidance from the EPA and monitored
larger competitors’ responses. KTurbo leadership
discussed Buy American compliance for months, with
several in-depth meetings that lasted hours.

2 We refer to the defendant, Heon Seok Lee, as “Lee” and Trinity
Lee by her full name. Trinity Lee served as KTurbo’s general
manager for North America.

App. 7
KTurbo
enlisted
independent
sales
representatives around the country to market its turbo
blowers to local governments pursuing Recovery Act
projects. KTurbo also consulted with several sales
representatives in the early stages of its Buy American
planning. One sales representative, Dick Koch,
discouraged KTurbo from pursuing a plan to make
turbo blowers in South Korea, ship them to the United
States, take them apart, and then reassemble
stateside. Koch warned Lee and KTurbo in an email
that such evasive practices could be deemed criminal:
The [EPA] webcast specifically excludes
Heon Seok’s idea of sending the
equipment to the US and taking it apart
and putting it back together. In fact the
webcast says that if you say that is [Buy
American] you are committing criminal
fraud.
Trinity Lee reassured Koch that KTurbo would use
components from both South Korea and the United
States and assemble the turbo blowers in greater
Chicago. Other sales representatives who inquired
about KTurbo’s Buy American compliance plan were
told the same thing, including by Lee himself.
At that point, KTurbo formed an Illinois
subsidiary, KTurbo USA Inc.,3 leased a warehouse in
Batavia, Illinois, and hired three American
technicians. KTurbo’s sales representatives landed
several contracts for Recovery Act projects. In its bids,
3 The legal distinction between KTurbo Inc. and KTurbo USA
Inc. does not matter for purposes of this opinion, so we refer to
the two companies collectively as “KTurbo.”

App. 8
KTurbo highlighted its domestic presence and
promised Buy American compliance. For example,
KTurbo submitted a bid to South Burlington, Vermont
in the summer of 2009, which included the following
Buy American certification:
By this letter, KTurbo USA certifies that
it will manufacture and deliver KTurbo
brand blower packages and equipment in
compliance with the final requirements
of the 2009 U.S. economic stimulus law,
The
American
Recovery
and
Reinvestment Act of 2009.
KTurbo sent nearly identical compliance letters for
projects in California, Massachusetts, Nevada, and
Oregon.
These representations—a South Korean company
certifying its product was “produced in the United
States”—did not go unnoticed. A competitor that lost a
bid to KTurbo filed a complaint with the EPA in the
fall of 2009. In response, EPA officials visited KTurbo’s
Batavia facility on October 30, 2009. During that visit,
Lee gave a PowerPoint presentation detailing
KTurbo’s plans to comply with the Buy American
provision. He represented that KTurbo would
assemble its turbo blowers at the Batavia facility.
Slides in Lee’s presentation indicated fifty percent of
the total input costs would be attributable to American
components, assembly, and testing. Trinity Lee sent
the EPA a letter confirming these details a few weeks
later.
KTurbo manufactured its first turbo blower at the
Batavia facility in January 2010. It built nine more

App. 9

there over the next three months, at a rate of one to
two weeks per blower.
C. The Revised Plan
It did not take long for Lee to abandon that original
plan to produce turbo blowers in Batavia. By April
2010, Lee concluded production costs in the United
States were prohibitively expensive, and he decided to
go back to importing turbo blowers from South Korea.
Employees pushed back with concerns about KTurbo’s
Recovery Act compliance, but Lee forged ahead. At
trial, one of KTurbo’s technicians explained how the
component parts from South Korea began arriving
more and more fully assembled, until completely
assembled blowers started showing up. No new
components were added to the turbo blowers once they
reached Batavia. Technicians simply plugged them in
and ran performance efficiency tests.
Lee’s revised plan depended on its secrecy. He
instructed KTurbo employees not to disclose to
customers the fact that their turbo blowers were made
in South Korea. To evade detection, KTurbo (with Lee’s
knowledge) went out of its way to avoid shipping the
machines from South Korea directly to customers.
When municipalities questioned KTurbo about
Recovery Act compliance, KTurbo simply lied. Take
KTurbo’s May 20, 2010 response to Lowell,
Massachusetts: “The blower will be assembled and
tested at KTurbo’s Chicago location.” Lee himself
participated, emailing a sales representative similar
misrepresentations in September 2010: “We assemble
and test in Chicago. Only motor and VFD comes from
Korea. It is almost Made In USA.”

App. 1 0
But this scheme unraveled quickly. Jorge Parra’s
shipyard discovery in December 2010 was the
beginning of the end. When U.S. Customs detained
KTurbo’s products at the border, the company fell
behind on its deliveries. This required more lies to hide
that the turbo blowers were coming from overseas and
needed to clear U.S. Customs. When a Lowell,
Massachusetts general contractor contacted KTurbo
about the delays, Joel Schomo (a KTurbo engineer) told
him the Batavia facility was waiting for parts to begin
final assembly, even though KTurbo had discontinued
all assembly operations in Batavia months earlier. At
trial, Schomo testified he told this lie because the
Recovery Act funded Lowell’s project and he did not
want to raise any “red flags” that KTurbo “might not
be complying with the Recovery Act requirements.”
Within two months, federal investigators executed
a search warrant at the Batavia facility. Lee was
present. During the search, Lee admitted he was
aware that the turbo blowers were for Recovery Act
projects, that KTurbo shipped them fully assembled
from South Korea, and that it was “wrong” to do so.
D. Lee’s Prosecution
About a year later, a grand jury returned an
indictment against Lee. It alleged he falsely
represented that KTurbo’s turbo blowers complied
with the Buy American provision when Lee knew
KTurbo “did not perform and did not intend to perform
substantial transformation of the turbo blowers at the
KTURBO facility in Batavia, Illinois, before delivery of
the turbo blowers to municipal wastewater treatment
facilities receiving Recovery Act stimulus funds.” The

App. 1 1
indictment also charged Lee “knew that turbo blowers
were substantially assembled before their arrival in
the United States and did not require meaningful
assembly or manufacturing in the United States.”
By this point, Lee had fled the country. It took
three years to extradite him from South Korea. When
the government finally brought Lee back to appear, he
responded to the indictment with a series of motions to
dismiss, each of which the district court denied.
During an eight-day trial, the government
presented dozens of witnesses: U.S. Customs officers,
federal
agents,
KTurbo
employees,
sales
representatives, general contractors, and employees of
municipal customers. Lee elected to take the stand,
and he adamantly denied any knowledge that KTurbo
imported fully assembled blowers into the United
States. On cross-examination, the government
battered Lee’s credibility, impeaching him with
documentary evidence and other witnesses’ testimony.
The jury ultimately convicted Lee on all counts.
E. Post-Trial Proceedings
Lee filed a series of post-trial motions seeking to
vacate the jury’s verdict; the district court denied each.
The district court held three sentencing hearings over
several months, which centered on the parties’ dispute
about how to calculate Lee’s guideline range. For wire
fraud convictions, the Sentencing Guidelines instruct
district courts to begin with a base offense level of
seven and then to add levels based on the amount of
the “loss” caused by the defendant. U.S.
SENTENCING GUIDELINES
MANUAL
§

App. 1 2
2Bl.l(a)-(b) (U.S. SENTENCING COMM’N Nov.
2018).
In this case, the parties disputed whether Lee
should receive credit in the loss calculation for the
market value of KTurbo blowers sold to customers.
The district court initially ruled that the loss equaled
the total amount KTurbo received from defrauded
municipalities (about $180,000), putting Lee’s
guideline range at 46—57 months. But the court gave
Lee a below-guidelines prison sentence of 20 months,
plus restitution. Two weeks later, Lee filed a notice of
appeal and a motion asking the district court to correct
its judgment under FED. R. CRIM. P. 35(a). The
district court held a hearing on Lee’s Rule 35(a) motion,
where it agreed with Lee’s argument on the guideline
calculation and resentenced Lee to 12 months. After
the district court entered its final judgment on March
14, 2018, Lee filed a second notice of appeal on March
28, 2018. Thirty days later, the government crossappealed Lee’s sentence.
II. Discussion
A. Wire Fraud Convictions
We begin with Lee’s wire fraud convictions. He
asks us to vacate them because the government’s trial
evidence constructively amended the indictment and
failed to prove all the elements of the crime.
1. Did the government’s case at trial
impermissibly deviate from the
indictment?
“No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or

App. 1 3
indictment of a Grand Jury ... .” U.S. CONST, amend.
V. The Founders adopted this grand jury requirement
from English tradition, in which lay grand jurors
considered whether a crime should be charged while
also protecting the accused from prosecutorial
overreach. See Wood v. Georgia, 370 U.S. 375, 390
(1962); see also Andrew D. Leipold, Grand Jury
Requirement, in THE HERITAGE GUIDE TO THE
CONSTITUTION 431 (David F. Forte & Matthew
Spalding eds., 2d ed. 2014). The Supreme Court has
explained “that a court cannot permit a defendant to
be tried on charges that are not made in the indictment
against him.” Stirone v. United States, 361 U.S. 212,
217 (1960).
Two related doctrines arise out of this Fifth
Amendment requirement: constructive amendment
and variance. Both explain differences between the
government’s case in the indictment and the
government’s case at trial. Constructive amendment
occurs where the trial evidence supports (or the court’s
jury instructions charge) an offense not alleged in the
indictment. United States v. Burge, 711 F.3d 803, 813
(7th Cir. 2013). Variance refers to situations where the
government’s trial evidence “proves facts materially
different from those alleged in the indictment.” United
States v. Ajayi, 808 F.3d 1113, 1125 (7th Cir. 2015)
(quotation marks omitted). The distinction between
the two doctrines is subtle, but significant. Where a
different crime has been proved (constructive
amendment), it is error per se and the verdict must be
vacated. United States v. Ratliff-White, 493 F.3d 812,

App. 1 4
820 (7th Cir. 2007).4 But where the same crime is
proved, only through evidence different than the
factual allegations in the indictment (variance), the
defendant must demonstrate prejudice to his
substantial rights. Id.
Lee contends the government constructively
amended the indictment by presenting evidence of
misrepresentations beyond KTurbo’s Buy American
certifications. He claims the indictment confined itself
to the falsity of the certifications, while the
government’s trial evidence focused on other lies, such
as false statements in sales presentations,
misrepresentations to sales representatives, and
misleading emails to general contractors.
Even if we accept as true Lee’s interpretation of
the indictment and his characterization of the trial
evidence, it would not rise to the level of a constructive
amendment. The government did not attempt to prove
a crime different from the one alleged. See United
States u. Khilchenko, 324 F.3d 917, 920 (7th Cir. 2003)
(“To effect a constructive amendment, the evidence at
trial must establish offenses different from or in
addition to those charged by the grand jury.”).
Prosecutors did not argue Lee committed mail fraud
when the indictment charged wire fraud. The
government’s case at trial did not attempt to prove a
fraud in the air compressor market after alleging a
4 This assumes the defendant properly preserved the error in
the district court. If the issue was waived or forfeited, we review
only for plain error. United States v. Remsza, 77 F.3d 1039, 104344 (7th Cir. 1996) (assessing defendant’s constructive
amendment argument under a plain error standard due to
defendant’s failure to raise it in the district court).

App. 1 5
scheme in the turbo blower market. Constructive
amendments arise “where there is a ‘complex of facts
distinctly different from those set forth in the charging
instrument and not where there is a single set of facts.’”
United States v. Galiffa, 734 F.2d 306, 314 (7th Cir.
1984) (quoting United States u. Von Stoll, 726 F.2d 584,
586 (9th Cir. 1984)). Here, the government
consistently maintained that Lee committed wire
fraud by selling turbo blowers made in South Korea as
if they were made in the United States.
Lee’s argument is more aptly characterized as one
of variance, although he does not frame it that way.
Even if the crime charged remains consistent, it is a
problem if the government materially alters the
factual underpinnings of that charge. See United
States v. Cina, 699 F.2d 853, 857-58 (7th Cir. 1983)
(defendant may establish reversible error where the
variance altered an essential or material element of
the charge). But variance claims are subject to
harmless error review—we will not disturb a
conviction on account of “a technical deficiency of no
prejudice to the defendant.” Id. (quoting Russell v.
United States, 369 U.S. 749, 763 (1962)). No prejudice
exists in this case.
First,
despite Lee’s characterization, the
indictment did tailor its fraud allegations to KTurbo’s
failure to manufacture its turbo blowers at the Batavia
facility. Paragraph 3 of the indictment alleged KTurbo
“did not perform and did not intend to perform
substantial transformation of the turbo blowers at the
KTURBO facility in Batavia, Illinois, before delivery of
the turbo blowers to municipal wastewater treatment
facilities receiving Recovery Act stimulus funds.” It

App. 1 6
also expressly alleged that Lee knew the turbo blowers
were already assembled before arriving in the United
States. The government proved those allegations at
trial with evidence that Lee knew KTurbo made its
turbo blowers in South Korea and lied about that fact.
Such evidence matches the indictment’s fraud
allegations.
Second, even if these misrepresentations were not
expressly covered by the indictment’s text, they were
“part and parcel” of the same scheme described by the
indictment. Nye & Nissen, Corp. v. United States, 336
U.S. 613, 617 (1949) (no variance where indictment
alleged a single scheme to defraud executed in various
ways). Additional evidence regarding technical details
about how a defendant executed an alleged scheme
does not constitute an impermissible variance. Ajayi,
808 F.3d at 1125 (presentation of “more detailed” facts
at trial not an impermissible variance). Lee cannot
demonstrate his Fifth Amendment rights were
violated because the government’s trial evidence
concerned “the same elaborate scheme to defraud ... as
was described in the indictment.” Ratliff-White, 493
F.3d at 821 (quoting United States v. Dupre, 462 F.3d
131, 140-41 (2d Cir. 2006)).
Two
concerns
underlie
the
constructive
amendment and variance doctrines: ensuring criminal
defendants have adequate notice of the charges
against them and avoiding the risk of double jeopardy.
Neither is present here. The indictment notified Lee of
the allegations against him: that he committed wire
fraud by importing turbo blowers from South Korea
while representing they were made in Batavia. See
United States v. Corrigan, 912 F.3d 422, 428 (7th Cir.

App. 1 7

2019) (indictment provided valid notice despite listing
wrong name of victim); United States v. Kuna, 760 F.2d
813, 819 (7th Cir. 1985) (alleged variance in mail fraud
prosecution was harmless because the defendant “was
able to identify with great certainty the acts for which
he was placed in jeopardy”).
The indictment also included specific details about
the scheme alleged, alleviating any double jeopardy
concerns. See United States v. Moore, 563 F.3d 583, 586
(7th Cir. 2009) (holding specificity in the indictment
would “avoid any later double jeopardy concerns”). It
described the Recovery Act’s Buy American provision,
how KTurbo leased a warehouse in Batavia, KTurbo’s
Recovery Act contracts, the fact KTurbo failed “to
perform substantial transformation of the turbo
blowers at the KTURBO facility in Batavia,” Lee’s
knowledge “that turbo blowers were substantially
assembled before their arrival in the United States and
did not require meaningful assembly or manufacturing
in the United States,” and Lee’s misrepresentations
and concealment of KTurbo’s true operations. Such
detail in the indictment protected Lee from exposure
to double jeopardy. See United States v. Scheuneman,
712 F.3d 372, 378 (7th Cir. 2013) (indictment sufficient
where it “presented enough detail to allow [the
defendant] to plead double jeopardy to avoid future
prosecution based on the same conduct alleged”).
Because the indictment afforded Lee ample notice
of the case the government presented at trial and
included specific details of the crimes alleged to avoid

App. 1 8

double jeopardy risk, no impermissible constructive
amendment or variance occurred in this case.5
2. Did the government present enough
evidence to convict Lee of wire fraud?
Lee appeals the district court’s denial of his motion
for acquittal under FED. R. CRIM. P. 29. We review
such decisions de novo, asking if the evidence—viewed
in the light most favorable to the prosecution—could
support a rational finding of all the essential elements
of the crime beyond a reasonable doubt. United States
v. Mohamed, 759 F.3d 798, 803 (7th Cir. 2014). Put
differently, we reverse only if the trial record “is devoid
of evidence from which a jury could conclude guilt
beyond a reasonable doubt.” United States v. Alhalabi,
443 F.3d 605, 613 (7th Cir. 2006). Given this deference
to the jury verdict, Lee’s hurdle on appeal is high, as
“we rarely reverse a conviction for mail or wire fraud
due to insufficient evidence.” United States v. Weimert,
819 F.3d 351, 354 (7th Cir. 2016).
To convict a defendant of wire fraud, the
government must prove three elements: (1) a scheme
to defraud, (2) the defendant’s intent to defraud, and
(3) the defendant’s use of interstate wires in
furtherance of the scheme. United States v. Jackson,
860 F.3d 438, 446 (7th Cir. 2017). Lee challenges the

5 Lee’s concerns are also mitigated because the district court
gave the jury a copy of the indictment and instructed jurors to
convict only if the government had proved the crimes it alleged.
See United States v. Cusimano, 148 F.3d 824, 830-31 (7th Cir.
1998) (district court’s provision of the indictment to the jury and
proper instruction on it “establish[ed] that there was no
constructive amendment to the indictment”).

App. 1 9

government’s proof on the first element, the scheme to
defraud. The wire fraud statute, 18 U.S.C. § 1343,
reaches “any scheme to deprive another of money or
property by means of false or fraudulent pretenses,
representations, or promises.” Carpenter v. United
States, 484 U.S. 19, 27 (1987).
On appeal, Lee argues that KTurbo’s Buy
American certifications were not false. He claims
KTurbo’s turbo blowers complied with the Buy
American provision because they were made in South
Korea. That claim is not as self-contradictory as it first
sounds, given the text of Recovery Act § 1605(d), which
requires the statute to be “applied in a manner
consistent with United States obligations under
international agreements.” Both the United States and
South Korea have joined the World Trade
Agreement
Organization’s
on
Government
Procurement (WTO-GPA), which requires all
signatories to provide all other signatories’ exports
“treatment no less favourable than the treatment the
Party, including its procuring entities, accords to: (a)
domestic goods, services and suppliers; and (b) goods,
services and suppliers of any other Party.” WTO-GPA
art. 4 § 1, Apr. 6, 2014, 3008 U.N.T.S. Reg. No. A31874.6 In other words, the WTO-GPA is a multi6 By its terms, the WTO-GPA covers purchases made by the
EPA above certain dollar thresholds. WTO-GPA, Coverage
Schedules, United States ann. 1. Coverage of purchases made by
States themselves, state agencies, and local municipalities is
more complicated, varying from State to State and from agency
to agency within a State. WTO-GPA, Coverage Schedules, United
States ann. 2-3; see also Hong-Sik Chung, Government
Procurement in the United States—Korea Free Trade Agreement:
Great Opportunities for Both Sides?, 34 NW. J. INT’L L. & BUS.

App. 2 0
lateral “most favored nation” clause for government
purchasing. Lee interprets Recovery Act § 1605(d) to
mean the WTO-GPA’s most favored nation clause
supersedes the Buy American provision, such that
South Korean products must be given the same
treatment as American products for purposes of the
Recovery Act.7
Critically however, when the Recovery Act was
enacted the EPA publicly rejected the interpretation
Lee now offers. An April 2009 EPA memorandum
explained that the agency interpreted Recovery Act §
1605(d) to apply to direct purchases by the federal
government and the specific state and local agencies
expressly listed in the WTO-GPA’s appendices, but not
“to procurement initiated by local entities ([state
revolving fund] assistance recipients), unless they are
listed in the appendix.” U.S. ENVTL. PROT. AGENCY,
Memorandum on Implementation of Buy American
provisions of P.L.
111-5
(Apr. 28,
2009),
https://www.epa.gOv/sites/nroduction/files/2
01412/documents/buv am.pdf (last visited August 13,
2019). In the nature of a “smoking gun,” federal agents

299, 303 (2014). But the WTO-GPA provides that where a covered
entity “requires persons not covered under a Party’s annexes to
Appendix I to procure in accordance with particular requirements,
Article IV shall apply mutatis mutandis to such requirements.”
WTO-GPA art. 2 § 5.
7 Federal purchasing regulations provide that where an
international agreement applies, the “restrictions of section 1605
of the Recovery Act do not apply to designated country iron, steel,
and/or other manufactured goods.” 2 C.F.R. § 176.160(b)(ii).
South Korea is listed as a “designated country” based on its
membership in the WTO-GPA. 2 C.F.R. § 176.160(a).

App. 2 1
found a copy of this EPA memorandum in KTurbo’s
Batavia facility, with the relevant paragraph flagged
by handwritten markings. Reasonable jurors could
thus conclude Lee was aware that the EPA did not
consider South Korean products Buy American
compliant.
As a result, even if one accepts Lee’s interpretation
of Recovery Act § 1605(d), the EPA’s express rejection
of it makes KTurbo’s South Korean manufacturing a
“material” fact for wire fraud purposes. Neder v.
United States, 527 U.S. 1, 16 (1999) (holding a
statement is “material” if it has “a natural tendency to
influence, or is capable of influencing, the decision of
the decisionmaking body to which it was addressed”)
(quoting United States v. Gaudin, 515 U.S. 506, 509
(1995)). KTurbo could not legitimately certify its Buy
American compliance, at least not without disclosing
to customers that the turbo blowers were made in
South Korea. Federal fraud statutes reach such
misleading omissions of material information. United
States v. Stephens, 421 F.3d 503, 507 (7th Cir. 2005).
A reasonable purchaser in this scenario—one who
received funds from the EPA pursuant to the Recovery
Act and was bound to comply with the Buy American
provision— would deem it highly relevant whether a
supplier based its Buy American certification on an
interpretation of the statute expressly rejected by the
EPA. A series of trial witnesses consistently testified
that Recovery Act compliance was “absolutely vital,”
given it was a legal requirement of the project funding.
Without Buy American compliance, municipalities
jeopardized losing all Recovery Act funding from the
EPA. As one customer testified, his municipality

App. 2 2

considered KTurbo’s representations that the turbo
blowers were “Assembled in USA” to be “extremely
important” because “it bolstered [their] belief that [the
turbo blower] was substantially transformed in the
United States.” Municipal employees also testified
they would not have purchased KTurbo’s blowers
without KTurbo’s Recovery Act assurances.
Where the fraud alleged deals with a half truth or
material omission, we generally require proof of an act
of concealment on the part of the defendant. See
Stephens, 421 F.3d at 507. The record in this case
unmistakably reflects such concealment. Trial
evidence
showed
KTurbo’s
repeated
misrepresentations to its customers about where
KTurbo made its turbo blowers. For example, KTurbo
sent the City of Pendleton, Oregon a Buy American
certification in April 2010—shortly after Lee decided
to stop all domestic manufacturing operations—
representing that KTurbo had “established an
assembly facility in Batavia, Illinois, where partial
manufacturing and assembly of all units sold in North
America will be complete[d].” No one at KTurbo ever
corrected that misrepresentation. At the beginning of
2011, KTurbo sent the City of Ottawa, Illinois a similar
Buy American certification, signed by Trinity Lee,
which stated: “All assembly of the completed unit will
be executed domestically. The assembly process
includes wiring and panel assembly, riveted frame
assembly, total assembly including all internal
connections and power wiring, tubing and final
calibration will be perofrmaned [sic] at KTurbo USA in
Batavia, IL.” None of that certification was truthful,
but it was emblematic of KTurbo’s fraudulent scheme.

App. 2 3
United States v. Betts-Gaston, 860 F.3d 525, 533 (7th
Cir. 2017) (jurors are permitted to infer fraudulent
methodologies from evidence of similar fraudulent
transactions),
KTurbo
repeatedly
assured
municipalities and their general contractors of its
Recovery Act compliance. Several customers testified
at trial about their belief that KTurbo made its turbo
blowers in the United States.
KTurbo also misled its own sales representatives
into thinking KTurbo manufactured turbo blowers in
Batavia, not South Korea. These sales representatives
testified they told customers—based on KTurbo’s
representations to them—that KTurbo complied with
the Buy American provision because it manufactured
and assembled its blowers in Batavia. Lee
masterminded these material misrepresentations,
even if he used sales representatives to pass them on
to the ultimate customers. See United States v.
Seidling, 737 F.3d 1155, 1160 (7th Cir. 2013) (“Nothing
in the statutory text of 18 U.S.C. § 1341 requires a
scheme to defraud to involve deception of the same
person or entity whose money or property is the
intended object of the scheme.”). He is responsible for
misrepresentations he commanded or willfully caused
others to make as KTurbo’s chief executive. 18 U.S.C.
§ 2; see also United States v. Gunning, 984 F.2d 1476,
1483 (7th Cir. 1993) (“One who counsels or commands
another to commit a crime, and knowingly and actively
contributes toward its success, is guilty of that crime
under 18 U.S.C. § 2.”).
But Lee himself also actively participated in the
cover up. During his trial cross-examination, Lee
acknowledged he knew that KTurbo’s customers and

App. 2 4

the EPA cared about Buy American compliance. But
he admitted he told customers that KTurbo blowers
were manufactured and assembled in the United
States. When a sales representative asked Lee about
Buy American compliance in a September 2010 email,
Lee responded: “We assemble and test in Chicago.
Only motor and VFD comes from Korea. It is almost
Made In USA.” Lee made that statement months after
KTurbo stopped assembly in the United States. Even
as the scheme began to unravel in early 2011, Lee
persisted in his lies. On January 28, 2011, a sales
representative directly asked Lee about a rumor that
federal agents were investigating KTurbo. Lee
responded by ensuring him that KTurbo faced no
Recovery Act issues: “Most important parts is [sic]
final assembly and testing. We are doing those, so we
are compliant.” Then, on February 8, 2011, when
representatives of Pendleton, Oregon, asked KTurbo
where its turbo blowers would be assembled, Lee wrote:
“In Chicago the blowers will be finalized and tested
and shipped.”
Lee also challenges the government’s proof of his
intent to defraud. A defendant acts with an intent to
defraud where he acts “willfully and with specific
intent to deceive or cheat, usually for the purpose of
getting financial gain for himself or causing financial
loss to another.” United States u. Pust, 798 F.3d 597,
600 (7th Cir. 2015) (quoting United States u. Paneras,
222 F.3d 406, 410 (7th Cir. 2000)). Lee claims the
government failed to prove he intended to defraud
anyone because the trial evidence showed KTurbo took
concrete steps toward manufacturing turbo blowers in
the United States.

App. 2 5
Lee’s intent argument ignores that his
misrepresentations continued well beyond April 2010,
when he decided to stop KTurbo’s American
manufacturing operations. That Lee kept telling
people KTurbo assembled its turbo blowers in Batavia
months after KTurbo ceased doing so is strong
circumstantial evidence of Lee’s intent to defraud. Pust,
798 F.3d at 600—01 (specific intent to defraud may be
established
by
circumstantial
evidence
and
examination of the scheme itself). Agents’ discovery of
copies of the EPA’s guidance memoranda on the Buy
American provision, as well as testimony from other
KTurbo employees about the extent of KTurbo’s
Recovery Act meetings and planning, support the
conclusion that Lee willfully attempted to circumvent
the law.
A jury also could reasonably conclude that Lee
never intended to make turbo blowers in Batavia long
term, but rather set up the facility as part of his
scheme to mislead the EPA, sales representatives, and
customers. Cf. United States v. Freed, 921 F.3d 716,
724 (7th Cir. 2019) (holding a promise made without a
present intention to keep it can be fraudulent). After
all, Lee did not wait even a full three months before
putting the kibosh on the entire operation. Viewing the
evidence in the light most favorable to the prosecution,
there is more than enough to conclude Lee intended to
deceive and defraud KTurbo’s customers.
The trial evidence presented over the course of
eight days adequately supports Lee’s participation in a
scheme to defraud and his intent to do so. Lee does not
challenge his use of interstate wires as a part of that
scheme. With all three elements of wire fraud

App. 2 6
adequately established in the trial record, we affirm
the jury’s verdict.
B. Smuggling Convictions
We turn now from Lee’s wire fraud convictions to
his three smuggling convictions under 18 U.S.C. § 545.
The statute provides, in part:
Whoever fraudulently or knowingly imports or
brings into the United States, any merchandise
contrary to law ... Shall be fined under this title
or imprisoned not more than 20 years, or both.
Over a century ago, when dealing with the
predecessor to § 545, the Supreme Court held the
words “contrary to law” refer to legal provisions
outside the statute itself. Keck v. United States, 172
U.S. 434, 437 (1899). A violation of § 545 requires a
violation of another law—the predicate offense if you
will—done with a fraudulent or knowing mindset. In
this case, the government claimed Lee violated 19
U.S.C. § 1304(a):
[EJvery article of foreign origin ...
imported into the United States shall be
marked in a conspicuous place as legibly,
indelibly, and permanently as the nature
of the article (or container) will permit in
such manner as to indicate to an ultimate
purchaser in the United States the
English name of the country of origin of
the article.
Lee asserts that a violation of § 1304(a) cannot
serve as a predicate offense for a § 545 conviction.
According to Lee, the words “imports ... merchandise
contrary to law” in § 545 mean that the merchandise

App. 2 7

itself is per se illegal to import, not merely that the
merchandise
was imported in
a condition
noncompliant with some federal law or regulation
somewhere.
In making this argument, Lee stresses the title of
§ 545: “Smuggling goods into the United States.” He
contends the word “smuggling” refers exclusively to
bringing on shore goods whose importation is
categorically prohibited. Lee effectively says he could
not have “smuggled” the turbo blowers into the United
States because turbo blowers are allowed in the United
States.
Even accepting Lee’s narrow interpretation of the
word “smuggling,”8 the text of the statute is not so
cabined when examined in its entirety. Section 545
contains two separate prohibitions; we must consider
both when assessing the statute’s meaning. See United
States u. Fisher, 6 U.S. 358, 386 (1805) (Marshall, C.J.)
(“It is undoubtedly a well established principle in the
exposition of statutes, that every part is to be
considered, and the intent of the legislature to be
extracted from the whole.”). Section 545’s first
8 We have some doubt that the term is quite so limited. Cf.
Smuggling, BLACK’S LAW DICTIONARY (11th ed. 2019) (“The
crime of importing or exporting illegal articles or articles on which
duties have not been paid.”); Smuggling, BALLENTINE’S LAW
DICTIONARY (3d ed. 2010) (“The criminal offense of knowingly
and willfully, with intent to defraud the United States,
clandestinely introducing into the United States any
merchandise which should have been declared for customs duty.”);
Smuggle, AMERICAN
HERITAGE DICTIONARY OF THE ENGLISH LANGUAGE
(5th ed. 2019) (“To bring into a country (a prohibited item)
secretively and intentionally in violation of the law.”).

App. 2 8
paragraph, which is not at issue, criminalizes
“knowingly and willfully ...
smuggling], or
clandestinely introducing] ... into the United States
any merchandise which should have been in-voiced ... .”
That language criminalizes smuggling goods into the
United States, and the statute’s title summarizes that
prohibition. But § 545’s second paragraph—the one
that is at issue—is broader. It criminalizes
“fraudulently or knowingly importing] ... any
merchandise contrary to law ... .” The text of the
second paragraph of § 545 makes no mention of the
word “smuggling.”

l

A statute’s title or heading is a permissible
indicator of the meaning of its text. Yates v. United
States, 135 S. Ct. 1074, 1083 (2015); see also
ANTONIN SCALIA AND BRYAN A. GARNER,
READING LAW: THE INTERPRETATION OF
LEGAL TEXTS 221 (2012). But a title cannot override
the statutory text itself. Bhd. of R.R. Trainmen v.
Baltimore & Ohio R.R. Co., 331 U.S. 519, 528—29
(1947). Although § 545—true to its title—outlaws
smuggling goods into the United States, the statute
also criminalizes the fraudulent or knowing
importation of “merchandise contrary to law.” Lee’s
construction of that language as equating with
“smuggling” renders the two provisions of § 545
duplicative, a heavily disfavored result. Kungys v.
United States, 485 U.S. 759, 778 (1988) (discussing the
“cardinal rule of statutory interpretation that no
provision should be construed to be entirely
redundant”); see also SCALIA & GARNER, supra, at
175. The better reading of the second paragraph of §
545 is that it makes it a crime to fraudulently or

App. 2 9
knowingly import merchandise in any manner
contrary to law. Section 545’s title cannot save Lee
from its text.
Lee next argues the case law is on his side. He
claims the cases only address scenarios where the
defendant imported goods that are illegal per se—
barred entirely from importation into the United
States. That might be true, but it would not change the
meaning of § 545. The scope of a statute cannot be
altered based on the fact patterns of cases that happen
to be charged and end up in the Federal Reporter. In
any event, Lee’s assertions about the state of the case
law are inaccurate. His cited authorities, Babb v.
United States, 218 F.2d 538 (5th Cir. 1955) and Steiner
v. United States, 229 F.2d 745 (9th Cir. 1956), dealt
with indictments that failed to identify an underlying
violation to serve as the predicate for § 545 liability.
The indictments simply lacked any predicate offense
under girding the § 545 charge. We do not have that
here: the government’s indictment specifically accused
Lee of violating § 1304(a).
And despite Lee’s attempts, we do not see how this
case is distinguishable from United States v. Kuipers,
49 F.3d 1254 (7th Cir. 1995).9 In Kuipers, we affirmed
the defendant’s § 545 conviction for attempting to
import the horns of a protected species under false
9 Lee’s claim that Kuipers dealt with only the first paragraph of
§ 545, and not the second, is not correct. 49 F.3d at 1256 (“Kuipers
was indicted on March 1, 1994 for ... (2) fraudulently and
knowingly importing the Desert
Bighorn Sheep into the United States contrary to
law
(18 U.S.C. § 545)..... ”).

App. 3 0

paperwork. Id. at 1256. It was legal to import the horns
into the United States with the proper paperwork, but
the defendant used forged documentation to
circumvent the law. Here, Lee essentially did the same
thing. Nothing prohibited Lee from importing turbo
blowers into the United States, but he needed to do so
with a proper country-of-origin designation under §
1304(a). Lee circumvented that requirement in a
fraudulent fashion, similar to the defendant in Kuipers.
Lee also claims he could not have violated § 545
because U.S. Customs detained the turbo blowers at
the border, such that the machines were never
imported into the country. But Lee fails to provide any
reason to exclude domestic U.S. Customs facilities
from the definition of the “United States,” as used in §
545. If anything, the text supports the opposite
conclusion, specifically excluding other areas but not
U.S. Customs offices. 18 U.S.C. § 545 (“The term
‘United States’, as used in this section, shall not
include the Virgin Island, American Samoa, Wake
Island, Midway Islands, Kingman Reef, Johnston
Island, or Guam.”); see also 19 U.S.C. § 1304(j)
(referring to merchandise held by U.S. Customs for
inspection as an “imported article”).
Lee notes that federal law allows mismarked goods,
after their markings are corrected, to be imported. 19
U.S.C. § 13040); see also 19 C.F.R. § 134.51. He
emphasizes that § 1304 does not itself purport to
criminalize mismarking a product’s country of origin,
despite providing criminal sanctions for other
violations. 19 U.S.C. § 1304(1) (penalizing anyone who
“defaces, destroys, removes, alters, covers, obscures, or
obliterates” a country-of-origin mark with intent to

App. 3 1
conceal that information). Yet one federal statute does
not preempt another. Baker v. IBP, Inc., 357 F.3d 685,
688 (7th Cir. 2004). Section 1304(l)’s silence cannot
override the text of § 545. The fact § 1304(1) does not
separately criminalize conduct already outlawed
under § 545 is not a basis for limiting the scope of § 545.
Cf. United States v. Hassanzadeh, 271 F.3d 574, 57679 (4th Cir. 2001) (affirming § 545 conviction based on
underlying § 1304 labeling violation).10
Finally, Lee claims treating § 1304 violations as
predicate offenses for § 545 liability will criminalize a
vast array of innocent behavior in international
commerce. This policy argument fails to account for §
545’s high scienter bar—fraudulent or knowing
misbehavior. Such a scienter requirement ensures the
statute does not criminalize innocent commercial
mistakes. See Rehaif v. United States, 139 S. Ct. 2191,
2196 (2019) (“The cases in which we have emphasized
scienter’s importance in separating wrongful from
innocent acts are legion.”). And this case involves no
mere administrative oversight. KTurbo’s mislabeling
served an important function in Lee’s broader scheme
10 Lee’s invocation of United States ex rel. Huangyan Import v.
Nature’s Farm Prods., 370 F. Supp. 2d 993 (N.D. Cal. 2005), is not
well received, particularly his selective and misleading quotation.
Although the opinion states federal regulations “permit the
importation of mismarked goods,” Lee leaves out the important
qualifying language about the monetary penalties imposed in
such circumstances. Id. at 1001. And, as the underlying statute
makes clear, goods originally mismarked upon arrival may be
withheld until their country-of-origin markings are corrected. 19
U.S.C. § 1304(i)-(j). Nothing in the Huangyan Import opinion
suggests that attempting to import merchandise with false
country-of-origin designations is anything but “contrary to law.”

App. 3 2
to deceive KTurbo customers about the origin of the
turbo blowers.
For all these reasons, we affirm Lee’s three
smuggling convictions.
Having affirmed all Lee’s convictions, we now
proceed to the sentencing issues presented by the
parties. We first address the government’s cross­
appeal regarding Lee’s prison sentence, before
resolving Lee’s challenge to the restitution ordered by
the district court.
C. The Government’s Cross-Appeal
The government asks us to reinstate the 20-month
sentence the district court originally imposed. It claims
the district court lacked authority under FED. R.
CRIM. P. 35(a) to reduce Lee’s sentence to 12 months.
But before we reach the merits of the government’s
cross-appeal, we must resolve two jurisdictional
questions.
1. Is there statutory jurisdiction for the
government's cross-appeal?
The government may appeal an adverse decision
in a criminal case only if expressly authorized by
statute. United States v. Martin Linen Supply Co., 430
U.S. 564, 568 (1977). Here, the government cites 18
U.S.C. § 3731. But that provision does not apply—the
government is not appealing a dismissal of its
indictment, a new trial order, or any of the other issues
listed in § 3731. See United States v. Spilotro, 884 F.2d
1003, 1005—06 (7th Cir. 1989) (holding § 3731 does not
provide jurisdiction for appeals challenging “a district
court order reducing a sentence”); see also CHARLES

App. 3 3
ALAN WRIGHT, ET AL„ 15B FED. PRAC. & PROC. §
3919.8 (2d ed. April 2019 supp.) (“Ordinarily the
government cannot rely upon either § 1291 or § 3731
to support appeal from a criminal sentence ... .”).
The relevant statute is 18 U.S.C. § 3742(b), which
authorizes the government to appeal a defendant’s
sentence on specific grounds. A district court’s
modification of a sentence without authority to do so,
as the government argues here, is one such ground. 18
U.S.C. § 3742(b)(1) (providing the government the
ability to appeal sentences “imposed in violation of
law”). The government’s errant citation is not
insignificant, given that timeliness is an issue for its
cross-appeal (as discussed below). Section 3731
contains a 30-day deadline for filing a notice of appeal
that § 3742(b) lacks. See CHARLES ALAN WRIGHT,
ET AL„ 16A FED. PRAC. & PROC. § 3950.8 (4th ed.
April 2019 supp.); see also In re Grand Jury
Proceedings, 616 F.3d 1186, 1195—99 (10th Cir. 2010)
(discussing the interplay between § 3731 and FED. R.
APP. P. 4(b)). Nevertheless, where the record provides
enough information to establish appellate jurisdiction,
we may exercise such jurisdiction despite the parties’
failure to direct us to its proper statutory source. See
NewPage Wis. Sys. Inc. v. United Steel Workers Int’l
Union, 651 F.3d 775, 778 (7th Cir. 2011) (if the
jurisdictional statute cited by a party is inaccurate, the
“court still must inquire whether another statute
supplies jurisdiction”); see also In re Sealed Case, 449
F.3d 118, 121 (D.C. Cir. 2006) (holding the appellant’s
failure to cite § 3742, “while bothersome to a court, is
not necessarily fatal”).

App. 3 4
One issue remains: Section 3742(b) requires the
government to obtain “the personal approval of the
Attorney General, the Solicitor General, or a deputy
solicitor general designated by the Solicitor General”
in order to appeal. Because the government did not
rely on § 3742(b) in its briefing, it has not provided
proof of its compliance with that statutory requirement.
But our circuit precedent does not treat § 3742(b)’s
approval requirement as jurisdictional. United States
v. Hendrickson, 22 F.3d 170, 172 n.l (7th Cir. 1994).11
Nothing in the record suggests the government lacks
authorization to pursue its cross-appeal, and Lee never
raised the issue.
2. Did the government file its notice of
appeal in time?

11 See also United States v. Jackson, 544 F.3d 1176, 1181—82
(11th Cir. 2008) (personal approval requirement in § 3742(b) is
non-jurisdictional), abrogated on different grounds by United
States v. DiFalco, 837 F.3d 1207, 1216 (11th Cir. 2016); United
States v. Ruiz-Alonso, 397 F.3d 815, 818 (9th Cir. 2005) (same);
United States v. Zamudio, 314 F.3d 517, 520 (10th Cir. 2002)
(same); United States v. Gonzalez, 970 F.2d 1095, 1102 (2d Cir.
1992) (same); but see United States v. Thibodeaux, 211 F.3d 910,
912 (5th Cir. 2000) (per curiam) (dismissing the government’s
sentencing appeal for failure to establish the requisite approval);
United States u. Smith, 910 F.2d 326, 328 (6th Cir. 1990) (holding
the approval is not jurisdictional but requiring proof that it has
been obtained as part of the court’s “exercise of its supervisory
authority”); cf. Greenlaw v. United States, 554 U.S. 237, 246 (2008)
(explaining that an appellate court may not increase a
defendant’s sentence absent a cross-appeal because “Congress ...
entrusted to named high-ranking officials within the Department
of Justice responsibility for determining whether the Government,
on behalf of the public, should seek a sentence higher than the
one imposed”).

App. 3 5
The next jurisdictional question concerns the
timeliness of the government’s notice of appeal. In a
criminal case like this, FED. R. APP. P. 4(b)(1)(B)
provides the government’s deadline:
When the government is entitled to
appeal, its notice of appeal must be filed
in the district court within 30 days of the
later of:
(i) the entry of the judgment or order
being appealed; or
(ii) the filing of a notice of appeal by any
defendant.
The government must file its own notice of appeal
to pursue a sentencing increase following a conviction;
it cannot piggyback on the defendant’s notice.
Greenlaw, 554 U.S. at 252—53. Here, the relevant
timeline looks like this:
•

February 28, 2018: The district court orally
sentenced Lee to 20 months in prison.

•

March 11, 2018: Lee filed his first notice of
appeal and a Rule 35(a) motion to correct his
sentence.

•

March 14, 2018: The district court modified
Lee’s sentence to 12 months in prison and
entered its written judgment.

•

March 28, 2018: Lee filed his second notice
of appeal.

•

April 27, 2018: The government crossappealed.

App. 3 6
The government does not rely on the date of
judgment under Rule 4(b)(l)(B)(i). It cannot, as it filed
its notice of appeal 45 days after the district court’s
judgment. But what about Rule 4(b)(l)(B)(ii)? The
government’s notice of appeal came 30 days after Lee’s
second notice of appeal, but 48 days after Lee’s first
notice. Which of Lee’s notices triggered the
government’s deadline clock?
As with any matter of statutory interpretation, the
text controls. Cochise Consultancy, Inc. v. United
States ex rel. Hunt, 139 S. Ct. 1507, 1512—13 (2019); see
also SCALIA & GARNER, supra, at 56 (“The words of
a governing text are of paramount concern, and what
they convey, in their context, is what the text means.”).
Notably, Rule 4(b)(l)(B)(ii) refers to “a notice of appeal
by any defendant” rather than “the first notice of
appeal by any defendant.” That is important because
the analogous rule for civil cases triggers a party’s
deadline to initiate a cross-appeal on “the date when
the first notice [of appeal] was filed ... .” FED. R. APP.
P. 4(a)(3) (emphasis added). The drafters could have
used the same language for the criminal rule, but they
chose different words. We must respect that decision
and give such variations effect. Murphy v. Smith, 138
S. Ct. 784, 787-88 (2018); see also SCALIA & GARNER,
supra, at 170 (“[A] material variation in terms
suggests a variation in meaning.”).
Lee offers no persuasive reason to interpret “a
notice of appeal by any defendant” to mean “the first
notice of appeal by any defendant.” The text of the rule
already contemplates there may be multiple notices of
appeal, and it allows the government to file its cross­
appeal within thirty days of the “later of’ such notices.

App. 3 7

The only authority Lee offers, Cyrak v. Lemon, 919
F.2d 320 (5th Cir. 1990), is a civil case addressing Rule
4(a), which expressly refers to the “first notice.” Rather
than simply analogize criminal cases to civil cases, as
Lee asks us to do, we give effect to the different text of
the different provisions and apply the rules as written.
Rule 4(b) permits the government to file its notice of
appeal within thirty days of “a notice of appeal by any
defendant.” Lee timely filed “a notice of appeal” on
March 28, 2018. And the government filed its notice
exactly thirty days later, on April 27, 2018, so the
government’s appeal is timely under the plain
meaning of FED. R. APP. P. 4(b)(l)(B)(ii).
3. In reducing Lee’s sentence, did the
district court exceed its authority?
Now we arrive at the substance of the
government’s crossappeal. The government claims
district courts lack authority to revisit advisory
guideline calculations on a motion brought under FED.
R. CRIM. P. 35(a). It does not challenge the merits of
the district court’s ruling, only the court’s authority to
make it. Rule 35(a) states: “Within 14 days after
sentencing, the court may correct a sentence that
resulted from arithmetical, technical, or other clear
error.”
In sentencing Lee, the district court struggled with
how to calculate the “loss” caused by Lee’s crimes for
purposes of U.S.S.G. § 2B1.1. Where the loss cannot be
determined, the Guidelines permit courts to look at the
defendant’s gain as an alternative. U.S.S.G. § 2B1.1
app. n. 3(B). The district court originally found Lee’s
gain to be the $180,392 in Recovery Act funds paid to

App. 3 8
KTurbo by municipalities. That put Lee’s guideline
range at 46—57 months, although the district court
departed down from that range and sentenced Lee to
20 months.
The district court abandoned that math on Lee’s
Rule 35(a) motion. Based on United States v. Giovenco,
773 F.3d 866, 871 (7th Cir. 2014), the court determined
it needed to assess net profit, rather than KTurbo’s
gross revenue, and that it lacked the evidentiary
record to do so. It therefore decided not to apply any
sentencing enhancement based on Lee’s gain under
U.S.S.G. § 2B1.1. Using a guideline range of 12-18
months, the court sentenced Lee to 12 months plus one
day.
The government emphasizes that a district court’s
authority on a Rule 35(a) motion is “narrow.” As we
have said, the “Rule does not give the district court a
second chance to exercise its ‘discretion with regard to
the application of the sentencing guidelines,’ nor does
it allow for changes to a sentence based on the court’s
change of mind.” United States v. Clark, 538 F.3d 803,
809 (7th Cir. 2008) (quoting FED. R. CRIM. P. 35
advisory committee’s note to 1991 amendments). Still,
Rule 35(a) is not the straitjacket the government
suggests. It does allow district courts to correct “clear
errors” and avoid wasteful appeals by fixing obvious
sentencing issues. United States v. Schenian, 847 F.3d
422, 424 (7th Cir. 2017). This extends to clear errors
that produce mistakenly high sentences. Id. If the
judge identifies an aspect of the sentence that is
objectively erroneous—whether on a factual matter or
a point of law— the judge may use Rule 35(a) to
address the problem.

App. 3 9

Here, the district court realized that its gain
calculation needed to assess net profit, not gross
revenue, see Giovenco, 773 F.3d at 871, and that it
lacked an evidentiary basis to do so. It also determined
nothing in the record showed how much Lee personally
gained from KTurbo’s sales. The government bore the
burden to establish a “loss” or “gain” under U.S.S.G. §
2B1.1. United States v. Johns, 686 F.3d 438, 454 (7th
Cir. 2012). Sentencing Lee without a supporting
evidentiary record would have constituted clear error.
Id. at 456—57. Rule 35(a)’s entire purpose is to correct
errors otherwise destined to be reversed. Schenian,
847 F.3d at 424; Clark, 538 F.3d at 809. The district
court was thus well within its authority to modify Lee’s
sentence on his Rule 35(a) motion.
D. Restitution
. Finally, we return to Lee’s appeal, specifically his
challenge to the restitution ordered by the district
court.
Under the Mandatory Victims Restitution Act,
courts must order restitution to any victim of “an
offense against property under this title, ... including
any offense committed by fraud or deceit.” 18 U.S.C. §
3663A(c)(l)(A)(ii). The statute sets the restitution
amount at the value of the victim’s lost property on the
date of loss or the date of sentencing (whichever is
greater) minus the value of any returned property. 18
U.S.C. § 3663A(b)(l)(B); see also United States v.
Malone, 747 F.3d 481, 485 (7th Cir. 2014).
On appeal, Lee objects to paying any restitution,
denying that any municipality sustained a loss. He
acknowledges that two municipalities, Mishawaka,

App. 4 0

Indiana and Redmond, Oregon, paid KTurbo a total of
$180,392 for turbo blowers manufactured in South
Korea. But Lee points out that the EPA subsequently
authorized Mishawaka and Redmond to continue
using the KTurbo blowers without returning the
Recovery Act funds. So Lee argues neither
municipality sustained any loss: each paid for turbo
blowers to use on its project, and each received turbo
blowers that it is using on its project.
But Lee waived this argument in the district court.
The probation office recommended the court order
$180,392 in restitution based on the sums paid by
Mishawaka and Redmond.12 The government agreed
with probation’s recommendation. Despite the fact the
district court held three sentencing hearings, Lee
failed to raise the issue of restitution, even once. Lee
failed to object in his written sentencing memorandum,
and he failed to raise the issue in his Rule 35(a) motion.
Indeed, Lee’s entire argument regarding restitution in
the district court comprised two sentences in a
supplemental brief requested by the court on a
different topic, with no citations to any statutory

12 Neither of these municipal contracts served as a basis for any
of the five counts of wire fraud in the indictment. Ordinarily
restitution is limited to the losses caused by the specific conduct
underlying the defendant’s convictions. United States v. Locke,
759 F.3d 760, 765 (7th Cir. 2014). But where the offense “involves
as an element a scheme, conspiracy, or pattern of criminal
activity,” such as the scheme to defraud necessary for a wire fraud
conviction, the applicable statute permits courts to award
restitution to “any person directly harmed by the defendant’s
criminal conduct in the course of the scheme, conspiracy, or
pattern.” 18 U.S.C. § 3663(a)(2).

App. 4 1

authority or case law supporting his position.13 That is
insufficient to preserve an objection.
The closer question is whether Lee affirmatively
waived the restitution arguments he now pursues on
appeal, or whether he only forfeited them. Waiver
requires the intentional relinquishment of a known
right, while forfeiture is a mere accidental or neglectful
failure to assert a right. United States v. Hathaway,
882 F.3d 638, 641 (7th Cir. 2018). The distinction is
important, as waiver precludes appellate review
altogether, while forfeited rights may be vindicated on
appeal through plain-error review. Id. In making this
determination, we look to whether the defendant
“chose, as a matter of strategy, not to present the
argument.” Id. (quoting United States v. Garcia, 580
F.3d 528, 541 (7th Cir. 2009)).
After reviewing the extensive sentencing
transcripts in this case, we conclude Lee and his
counsel made a strategic decision to not press
objections to restitution in the district court, and thus
waived the issue. The main event during the
sentencing was the loss calculation under U.S.S.G. §
2B1.1. Yet restitution did come up. At the first hearing,
Lee’s counsel interjected, “I would also just note since
restitution is brought up—been brought up, that the
restitution amount I don’t think needs to be above 180.”
Rather than argue the district court should not order
restitution because there was no loss, as he does now,
13 In the district court Lee argued: “Since the loss amount is zero,
the restitution amount is also zero. And the government’s motion
to use Heon Seok Lee’s bond deposit to pay restitution (Dkt# 239)
should therefore be denied.”

App. 4 2
Lee asked the district court to not go above the
$180,392 figure recommended by the probation
office. 14 Although Lee did include a two-sentence
objection to restitution in his supplemental
memorandum before the second hearing, he never
raised the issue at the second hearing itself, despite
the prosecution addressing the topic. Lee never
mentioned restitution in his Rule 35(a) motion. And, at
the third sentencing hearing, when the district court
noted its intention to enter the same $180,392 in
restitution (despite reducing Lee’s prison term on
account of the government’s failure to prove the loss
amount), Lee’s counsel represented, “I think that’s
correct as to what should—what would be in the
judgment.” These repeated decisions to press other
arguments, and not address restitution, evinced a
“tactical choice” on Lee’s part, constituting waiver.
United States v. Jin Hua Dong, 675 F.3d 698, 702 (7th
Cir. 2012).
We realize there is some logical tension between
the district court’s restitution award, and its
conclusion that it lacked a sufficient evidentiary basis
to determine victims’ “loss” for purposes of U.S.S.G. §
2B1.1.15 But the appropriate forum for addressing that
14 Lee made this point in. the context of a debate about whether
the loss figure under the Sentencing Guidelines should be the
$1.6 million face value of KTurbo’s Recovery Act contracts. Lee’s
incentive to push the district court toward a figure substantially
lower than that was clear.
15 Although the restitution amount typically tracks the loss
amount under the Sentencing Guidelines, United States v. McGee,
612 F.3d 627, 635 (7th Cir. 2010), courts must be careful not to
confuse the two given the differences between the definitions of
“loss” under U.S.S.G. § 2B1.1 and restitution under 18 U.S.C. §

App. 4 3
issue was the district court in the first instance.
Calculating restitution in an atypical fraud case such
as this one is difficult, as the losses caused by a scheme
to circumvent governmental purchasing preferences
are “inher-ently difficult to quantify.” United States v.
Leahy, 464 F.3d 773, 794 (7th Cir. 2006). The district
court was entitled to the benefit of the parties’ best
arguments on how restitution should be calculated. By
strategically choosing to forego his challenge to the
restitution figure in the district court, Lee waived the
issue: “A defendant cannot squirrel away objections,
revealing them only upon successive appeals.” Kuipers,
49 F.3d at 1258.
III. Conclusion
Heon Seok Lee repeatedly lied about where his
company manufactured its products in order to profit
off a federal stimulus package. Such a fraudulent
scheme is wire fraud and prohibited by 18 U.S.C. §
1343. To execute his scheme, Lee directed his company
to mislabel the country of origin for its products and
attempt to import them with those incorrect
designations. This violated 19 U.S.C. § 1304(a) and the
federal prohibition against smuggling, 18 U.S.C. § 545,
and evidence supported the jury’s verdict on those
counts. As to Lee’s sentence, although the government
timely appealed, the district court did not exceed its
authority when it revisited Lee’s sentencing guidelines
range and modified Lee’s prison sentence accordingly.

3663A(b)(l)(B). United States u. Hussein, 664 F.3d 155, 161 n.2
(7th Cir. 2011) (“The amount of restitution does not always
correspond to guidelines loss because the rules for calculating
each differ.”).

App. 4 5

Appendix D.
Decision of District Court
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
UNITED STATES OF
)
AMERICA
)
) Case No. 12-CR-109
Plaintiff, )
) Judge
) Sharon Johnson Coleman
v.
)

HEON SEOK LEE,

)
)

Defendant.)
MEMORANDUM OPINION AND ORDER
The defendant, Heon Seok Lee, was charged in a
2012 indictment with five counts of wire fraud in
violation of 18 U.S.C. § 1343 and three counts of
smuggling mismarked merchandise into the United
States in violation of 18 U.S.C. § 545. After an eightday trial, a jury found Lee guilty on all counts of the
indictment. Lee now moves this Court for a judgment
of acquittal under Federal Rule of Criminal Procedure
29, for a new trial under Federal Rule of Criminal
Procedure 33, or to arrest the judgment against him
under Federal Rule of Criminal Procedure 34. After
considering the parties’ oral and written arguments

App. 4 6
regarding the post-trial motions, as well as the parties’
prior motion practice and this Court’s prior rulings,
Lee’s post-trial motions are denied for the reasons set
forth below.
Background
Lee was indicted on February 16, 2012 on charges
of wire fraud and smuggling, stemming from a scheme
to defraud municipalities and their contractors by
representing that turbo blowers manufactured in and
imported from the Republic of Korea were
substantially transformed in the United States in
accordance with federal requirements governing the
grant program funding the blowers’ installation. Lee,
the CEO of Korean manufacturer KTurbo, established
an American subsidiary, KTurbo USA, and
represented that KTurbo USA would assemble turbo
blowers in the United States using a number of
American-made components. Instead, the evidence
showed that Lee imported completed turbo blowers,
some labeled as having been manufactured in America,
from KTurbo’s Korean factory, had those blowers
shipped to KTurbo USA’s facility, and then shipped the
completed blowers to the customer. The evidence
further showed that Lee directed his subordinates to
falsely represent to municipalities, contractors, and
EPA personnel that the blowers and their components
were manufactured in the United States when in fact
they were not. After an eight day trial, Lee was
convicted of five counts of wire fraud and three counts
of smuggling.
Legal Standard

App. 4 7

A criminal defendant who has been found guilty
by a jury may move for a judgment of acquittal under
Federal Rule of Criminal Procedure 29. In considering
a motion for judgment of acquittal, a court must
“consider the evidence in the light most favorable to
the prosecution, drawing all reasonable inferences in
the government's favor.” United States v. Macari, 453
F.3d 926, 936 (7th Cir. 2006) (quoting United States v.
Masten, 170 F.3d 790, 794 (7th Cir. 1999)). “Reversal
is appropriate only when, after viewing the evidence in
such a manner, no rational jury ‘could have found the
defendant to have committed the essential elements of
the crime.’” Id.
A court may provide a new trial to a criminal
defendant found guilty by a jury “if the interest of
justice so requires.” Fed. R. Crim. P. 33. It is within
the sound discretion of the trial judge to decide
whether to grant a new trial. A defendant is entitled
to a new trial if there is a reasonable possibility that
trial errors had a prejudicial effect on the jury’s verdict.
United States v. Van Eyl, 468 F.3d 428, 436 (7th Cir.
2006). In determining whether to grant a new trial,
courts must exercise “great caution” and be wary of
second guessing the jury’s determinations. United
States v. Ryan, 213 F.3d 347, 351 (7th Cir. 2000)
(quoting United States v. DePriest, 6 F.3d 1201, 1216
(7th Cir. 1993).
A court may arrest a judgment, after a jury verdict,
if the Court concludes that it did not have jurisdiction
over the charged offense. Fed. R. Crim. P. 34. The
determination of whether a Court had jurisdiction is a
pure question of law distinct from the evidence

App. 4 8

presented at trial. United States v. Boender, 719 F.
Supp. 2d 951, 953 (N.D. Ill. 2010) (Dow, J.).
Discussion
1. The Motion for Arrest of Judgment
Lee first renews his challenge to this Court’s
jurisdiction. As this Court has previously noted,
however, Lee does not challenge this Court’s general
subject matter jurisdiction over criminal matters
conferred by 18 U.S.C. § 3231. Instead, he asserts that
this Court lacked jurisdiction to determine whether a
“substantial transformation” occurred because the
Court of International Trade has exclusive jurisdiction
over certain civil matters that involve the definition of
that term. See generally 28 U.S.C. §§ 1340; 1581.
The Court of International Trade is conferred by
statute with exclusive jurisdiction over specifically
enumerated civil matters. This, however, is a criminal
case brought under this Court’s statutorily conferred
criminal jurisdiction. Lee offers, and this Court is
aware of, no legal authority giving the Court of
International Trade jurisdiction to hear criminal
matters. Moreover, although Lee cites to statutes
establishing the Court of International Trade’s
exclusive jurisdiction over certain civil matters, Lee
has identified no authority suggesting that this Court
lacks jurisdiction to determine whether or not a
“substantial transformation” has occurred in a
criminal matter. This Court accordingly concludes
that it had jurisdiction over this case pursuant to 18
U.S.C. § 3231 and therefore denies Lee’s motion for an
arrest of judgment.

App. 4 9
2. The Motion for Judgment of Acquittal
Lee challenges the sufficiency of the evidence
supporting his wire fraud and smuggling convictions.
As an initial matter, this Court notes that Lee has
renewed his assertion that the American Recovery and
Reinvestment Act (ARRA) does not apply to KTurbo.
This Court has repeatedly emphasized that this
argument is irrelevant because the prosecution in this
case is premised upon fraudulent representations and
smuggling and not, as Lee appears to contend, on
regulatory violations.
In order to convict a defendant of wire fraud under
18 U.S.C. § 1343, the government needed to prove that
(1) there was a scheme to defraud; (2) wires were used
in furtherance of the scheme; and (3) Lee participated
in the scheme with the intent to defraud. United
States v. Pust, 798 F.3d 597, 600 (7th Cir. 2015) (citing
United States v. Sheneman, 682 F.3d 623, 628 7th Cir.
2012); United States u. Stephans, 421 F.3d 503, 507
(7th Cir. 2005).
Lee contends that there was insufficient evidence
of a scheme to defraud because the blowers in question
were substantially transformed,
The evidence,
however, showed that the blowers in question arrived
in the United States fully assembled from KTurbo’s
factory. Lee contends that the final installation,
calibration, and testing of the blowers constituted a
“substantial transformation,” but the evidence at trial
was more than adequate to support a jury in
concluding that those activities, which took place once
the fully constructed blower arrived at the jobsite,
were not complex and meaningful in nature.

App. 5 0
In a similar vein, Lee argues, for the first time,
that the term “substantial transformation” is
unconstitutionally vague and therefore cannot serve
as the basis for his criminal conviction. Lee has offered,
and this Court is aware of, no authority suggesting
that the potential vagueness of a regulatory standard
can call into question the constitutionality of a
criminal conviction based on false representations of
compliance with that standard. The evidence at trial,
moreover, established that Lee made specific
misrepresentations about which components of the
blowers would be manufactured in the United States
or where the blowers would be manufactured, the
falsity of which did not depend on the interpretation of
the substantial transformation standard.
Lee also asserts that the alleged fraudulent
statements were not material in light of the Republic
of Korea’s status as a “designated country” under
ARRA or the WTO agreement. A false statement is
material if it has a natural tendency to influence or is
capable of influencing the decision of the
decisionmaking body to which it was addressed, even
if it does not actually affect the decision in question.
United States v. Grigsby, 692 F.3d 778, 785 (7th Cir.
2012). Here, the evidence, taken in the prosecution’s
favor, was more than adequate to establish that the
victims relied on Lee’s false statements concerning
KTurbo’s compliance with ARRA through the
substantial transformation requirement,
The
evidence was therefore sufficient to establish those
statements materiality. Cf. United States v. Jackson,
546 F.3d 801, 816 (7th Cir. 2008) (recognizing that a

App. 5 1
statement can be material even when the victim did
not ultimately rely on it).
Lee further contends that there was insufficient
evidence to support his smuggling convictions. In
order to convict a defendant of smuggling under 18
U.S.C. § 545, the government needed to prove that Lee
fraudulently or knowingly imported merchandise
contrary to law into the United States. Lee asserts
that his importation of the blowers in question was not
contrary to law because 19 U.S.C. § 1304 “proscribes
non-marking, not mis-marking.”
That argument
misses the mark. Title 19, section 1304 expressly
provides that “every article of foreign origin . . .
imported into the United States shall be marked in a
conspicuous place ... in such a manner as to indicate
to an ultimate purchaser in the United States the
English name of the country of origin of the article.” 19
U.S.C. § 1394(a) (emphasis added). It is undisputed
that the “country of origin” of the blowers was the
Republic of Korea.
Accordingly, the blowers in
question were not labelled with the “name of the
country of origin of the article,” and therefore were
imported in violation of United States law.
Lee alternatively argues that KTurbo was the
“ultimate purchaser” of the blowers imported into the
United States. If an imported article will be used in
manufacture, the manufacturer may be the “ultimate
purchaser” if the imported article is subjected to a
process which results in its substantial transformation.
19 C.F.R. § 134.1(d)(1). As previously noted, however,
there was sufficient evidence for the jury to conclude
that the blowers in question were not substantially
transformed in the United States.
This Court

I

App. 5 2
accordingly holds that the evidence was sufficient to
support Lee’s convictions.
Lee also contends that this Court erred in denying
Lee’s motions to dismiss the indictment based on
misleading grand jury testimony and misleading
testimony during the extradition proceedings. These
arguments, however, do not concern the sufficiency of
the evidence at trial and therefore cannot be raised
through a motion for judgment of acquittal. Even if
this Court were to consider these arguments, moreover,
they would be denied. This Court has repeatedly
rejected Lee’s argument that misconduct occurred
before the grand jury and, in any event, any error in
the grand jury proceeding is harmless in light of the
petit jury’s subsequent verdict.
United States v.
Vincent, 416 F.3d 593, 601 (7th Cir. 2005).
Lee’s argument regarding his extradition,
assuming without deciding that Lee has standing to
challenge his extradition,16 is similarly unpersuasive.
As a general principle, the rule of specialty provides
that an extradited defendant may only be prosecuted
for the specific crimes for which he was extradited.
United States v. Rauscher, 119 U.S. 407, 430—432, 7
S.Ct. 234, 30 L.Ed. 425 (1886); United States u. Stokes,
726 F.3d 888—89 (7th Cir. 2013). The specific treaty at
16 The “Rule of Specialty” is contained in the extradition treaty
between the United States and the Repubhc of Korea. Existing
Seventh Circuit caselaw suggest that Lee lacks standing to
challenge violations of that treaty absent a protest from the
sovereign involved. United States v. Burke, 425 F.3d 400, 408
(7th Cir. 2005); but see United States v. Stokes, 726 F.3d 888-89
(7th Cir. 2013) (questioning the extent to which Burke can be
squared with prior Supreme Court precedent and cases from
other circuits).

4

App. 5 3
issue here requires that the extradited individual may
not be detained, tried, or punished except for “the
offense for which extradition has been granted or a
differently denominated offense based on the same
facts on which extradition was granted, provided such
offense is extraditable, or is a lesser included offense.”
Extradition Treaty Between the Government of
the United States of America and the Government of
the Republic of Korea, U.S.-Korea, art. 15, entered into
force Dec. 20, 1999, T.I.A.S. No. 12,962 (emphasis
added). The 20th Criminal Division of the Seoul High
Court granted extradition based on Lee’s alleged
violations of 18 U.S.C. § 1343 and 18 U.S.C. § 545.
Although minor factual variations exist between the
facts presented to the Seoul High Court and the
evidence established at trial, as this Court has
previously held those variations did not alter the
fundamental nature of the offense alleged. Lee’s
indictment and subsequent conviction therefore did
not violate the rule of specialty.
3. The Motion for a New Trial
Lee moves for a new trial pursuant to Federal
Rule of Criminal Procedure 33, arguing that this Court
erred by permitting the government to constructively
amend the indictment at trial,
permitting the
introduction of flight evidence, admitting co­
conspirator hearsay statements, and rejecting Lee’s
proposed jury instructions or overruling his objections
to the government’s proposed jury instructions. Lee’s
arguments on these points are largely conclusory and
present no new arguments beyond those which were
presented in Lee’s written and oral arguments

f

/

App. 5 4
presented at trial. Accordingly, Lee’s motion for a new
trial is denied based on this Court’s prior written and
oral rulings on these matters.
Conclusion
For the foregoing reasons, Lee’s motion for
judgment of acquittal and arrest of judgment [185] and
motion for a new trial [180] are denied.
SO ORDERED.
s/SHARON JOHNSON COLEMAN
United States District Court Judge
DATED: September 27, 2017

•

